                               Office of Inspector General
                              Corporation for National and
                                       Community Service




      INCURRED-COSTAUDIT OF GRANTS
            AWARDED  TO THE
        SOUTHCAROLINACOMMISSION
    ON NATIONALAND COMMUNITY SERVICE
           OIG REPORT
                    NUMBER04-14




                                               COMMUNITY
                                               SERVICEElZ




                       Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 22314




This report was issued to Corporation management on June 18, 2004. Under
the laws and regulations governing audit follow up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than December 18, 2004, and complete its corrective actions by June 18,
2005. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 04- 14

                       Incurred-Cost Audit of Grants Awarded to the
               South Carolina Commission on National and Community Service

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) retained Cotton & Company LLP to perform an incurred-cost audit of grants
awarded to the South Carolina Commission on National and Community Service. The objectives
of the audit were to determine whether: (I) financial reports prepared by the Commission
presented fairly the financial status of the awards; (2) the internal controls were adequate to
safeguard Federal funds; (3) the Commission and its subrecipients had adequate procedures and
controls to ensure compliance with Federal laws, applicable regulations and award conditions,
and that member services were appropriate to the programs; (4) the award costs reported to the
Corporation were documented and allowable in accordance with the award terms and conditions;
and (5) the Commission had established adequate oversight and informed subrecipients of the
Corporation's Government Performance and Results Act goals.

For the grants audited, the Commission claimed costs of $5,059,908, of which the auditors
questioned $25,592 as unallowable and $19,586 as unsupported because the claims lacked
supporting documentation. The auditors questioned less than one percent of claimed costs.
Costs questioned for allowability represent amounts for which documentation shows that
recorded costs were expended in violation of regulations, or specific award conditions, or costs
that require an interpretation of allowability. Costs questioned for support require additional
documentation to substantiate that the costs were incurred and are allowable. The auditors
concluded that the Consolidated Schedule of Award Costs presents fairly the costs claimed by
the Commission, except for the questioned and unsupported costs identified in the report, and the
effects of any adjustments. The auditors also noted nine instances of noncompliance with
provisions of laws, regulations and grants.

The Commission's response to the draft report includes modification or implementation of
policies and procedures to correct the noncompliance issues, as well information about the
questioned costs. These actions will be reviewed by the Corporation as part of the audit
resolution process.

The Office of Inspector General has reviewed the report and the work papers supporting the    *



auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided officials of the South Carolina Commission on
National and Community Service and the Corporation with a draft of this report for their review
and comment. Their responses are included in their entirety as Appendices A and By
respectively.
Background

The Corporation for National and Community Service, pursuant to the National and Community
Service Trust Act, as amended, awards grants and cooperative agreements to State commissions,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time national
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions, in turn, fund and oversee the subgrantees that execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.
                       OFFICE OF INSPECTOR GENERAL
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               INCURRED-COST AUDIT OF GRANTS AWARDED TO THE
       SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE

                                                        Contents

Section                                                                                                                 Page

Audit Scope .........................................................................................................

Summary of Results ...............................................................................................

Independent Auditors' Report ....................................................................................

Consolidated Schedule of Claimed and Questioned Costs ...................................................

Schedule A: Schedule of Claimed and Questioned Costs for Award No . 01 SCSSCOS 1 ................

Schedule B: Schedule of Claimed and Questioned Costs for Award No . 00ASCSC042 ...............
   Schedule B-1 : Schedule of Claimed and Questioned Costs. City Year. Inc .........................
   Schedule B-2: Schedule of Claimed and Questioned Costs. Winthrop University ..................

Schedule C: Schedule of Claimed and Questioned Costs for Award No . 00ASFSC042 ...............
   Schedule C-I: Schedule of Claimed and Questioned Costs. Habitat for Humanity International
   Schedule C-2: Schedule of Claimed and Questioned Costs. Pickens County School District .....
   Schedule C-3: Schedule of Claimed and Questioned Costs. University of South Carolina .
       Spartanburg ...............................................................................................
   Schedule C-4: Schedule of Claimed and Questioned Costs. Winthrop University ..................

Schedule D: Schedule of Claimed and Questioned Costs for Award No . 02AHHSC042 ...............
   Schedule D-1 : Schedule of Claimed and Questioned Costs. Office of the Adjutant General .....

Schedule E: Schedule of Claimed and Questioned Costs for Award No . 00LCSSC041 ...............
   Schedule E-1: Schedule of Claimed and Questioned Costs. City of York Recreation
       Department ................................................................................................
   Schedule E-2: Schedule of Claimed and Questioned Costs. Clarendon County Council on
       AgingIUnited Way of Sumter .........................................................................
   Schedule E-3: Schedule of Claimed and Questioned Costs. Irmo Chapin Recreation
       Department ................................................................................................
   Schedule E-4: Schedule of Claimed and Questioned Costs. United Way of Pickens ..............

Summary of Significant Accounting Policies ..................................................................

Independent Auditors' Report on Compliance and Internal Control ...................................

Attachment

A: Status of Findings from the Pre-Audit Survey ..........................................................               42
                                                                                                                                                Page

Appendices

A: Commission's Response to Draft Audit Report.. . ... ... ... ... . . . . . . . . . ... ... ... ... . . . ... . . . . . . ... ... .. ....
B: Corporation's Response to Draft Audit Report... . . . ... ... ... ... . . . . . . . . . ... ... ... ... ... ... . . . . . . ... .. . . . .
                                             AUDIT SCOPE


         Cotton & Company LLP was contracted by the Office of Inspector General (OIG) to perform an
incurred-cost audit of costs claimed by the South Carolina Commission on National and Community
Service (Commission) and its subgrantees (listed on the following page) for Program Years (PYs) 2000-
2001,2001-2002, and 2002-2003. Our audit included costs incurred under the following grants from
inception to the end of the grant or costs incurred as of September 30,2003, if the grant was still open as
of that date. Our audit covered financial transactions, compliance, and internal control testing of the
following program awards funded by the Corporation for National and Community Service
(Corporation):

Program                                   Award No.              Award Period              Audit Period
Administrative
Program Development Assistance
  and Training (PDAT)
Disability
AmeriCorps Competitive
AmeriCorps Formula
AmeriCorps Homeland Security
AmeriCorps Promise Fellows
Learn and Serve



        Audit objectives were to determine if:

                 The Commission's financial reports presented financial award results fairly.

                 Internal controls were adequate to safeguard Federal funds.

                 The Commission and its subgrantees had adequate procedures and controls to ensure
                 compliance with Federal laws, applicable regulations, and award conditions.

                 The Commission documented award costs reported to the Corporation, and these costs
                 were allowable in accordance with award terms and conditions.

                 The Commission had established adequate financial and program management oversight
                 of its subgrantees.
We used the following subgrantee abbreviations in this report:

     Full Name                                                        Abbreviated Name
     Benedict College                                                 Benedict
     Charleston County Parks and Recreation Commission                Charleston
     City of York Recreation Department                               York
     City Year, Inc.                                                  City Year
     Clarendon County Council on AgingIUnited Way of Sumter           Clarendon
     Clarendon School District 2                                      Clarendon 2
     Clemson Extension                                                Clemson
     Community In Schools                                             Community In Schools
     Crisis Ministries                                                Crisis Ministries
     Edgefield County School District                                 Edgefield
     ElderCare Service Providers, Inc.                                ElderCare
     Georgetown County United Way, Inc.                               Georgetown
     Habitat for Humanity International                               HFHI
     Hampton County Recreation Department                             Hampton
     Irmo Chapin Recreation Commission                                Irmo Chapin
     Lancaster County School District                                 Lancaster
     Marion School District 7                                         Marion
     Mayor's Office on Children, Youth, and Families                  Mayor's Office
     Office of the Adjutant General                                   OAG
     Palmetto Community Hope Foundation                               Palmetto
     Pickens County School District                                   Pickens
     Raven, Inc.                                                      Raven
     Richland School District 2                                       Richland
     Rock Hill Area YMCA                                              Rock Hill
     St. Andrew's Parish Parks and Playground Commission              St. Andrew's
     United Way of Pickens                                            UW of Pickens
     University of South Carolina-Columbia                            USCC
     University of South Carolina-Spartanburg                         USCS
     Volunteers of America of the Carolinas, Inc: Children's Garden   Children's Garden
     Winthrop University                                              W inthrop
                                     SUMMARY OF RESULTS


        Our audit report expresses a qualified opinion on the Consolidated Schedule of Claimed and
Questioned Costs based upon questioned costs detailed below. Compliance and internal control findings
and cost findings are summarized below.

COMPLIANCE AND INTERNAL CONTROL FINDINGS

         We have issued a report titled "Independent Auditors' Report on Compliance and Internal
Control," which is applicable to the audit of the Consolidated Schedule of Claimed and Questioned Costs.
In that report, we identified findings required to be reported under Government Auditing Standards.
These findings are as follows:

        The Commission claimed unallowable costs and costs for which no documentation was provided
        to support allowability.

        The Commission and certain subgrantees did not submit all required Financial Status Reports
        (FSRs), Progress Reports, and Periodic Expenditure Reports (PERs)/Final Reimbursement
        Claims in a timely manner.

        Federal and grantee shares of outlays reported on FSRs were inaccurate.

        Grantee matching contributions were not properly recorded and monitored.

        The Commission did not include sufficient financial information, Office of Management and
        Budget (OMB) Circular A-133 audit results, and relevant past performance of grant applicants in
        the subgrant award process.

        Certain subgrantees did not prepare, approve, and report member time sheets properly.

        Certain subgrantees did not ensure that members were eligible to perform their designated
        services or that services provided were qualified under grant provisions.

        Certain subgrantees did not comply with program requirements on member activities'
        documentation and reporting.

        The Commission lacked appropriate procedures for reviewing OMB Circular A-1 33 audit reports
        and providing feedback to subgrantees for improvements.
COST FINDINGS

         The Commission claimed $5,059,908 in Corporation grants for PYs 2000-200 1, 200 1-2002, and
2002-2003. Of this amount, we questioned claimed costs of $25,592 for allowability and $19,586 for
lack of support. Costs questioned for allowability are costs for which documentation shows that recorded
costs were incurred in violation of laws, regulations, or specific award conditions, or costs that require
interpretation of allowability by the Corporation. Costs questioned for lack of support require additional
documentation to substantiate that the cost was incurred and is allowable.

         Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards from the National Service Trust. These award amounts are not funded by
Corporation grants and thus are not included in claimed costs. As part of our audit, however, we
determined the effect of the audit on award eligibility. Using the same criteria described above, we
questioned $7,775 in education awards for allowability and $29,612 for lack of support.

        Questioned costs and education awards are summarized below.


                                                                                         Education
    Questioned for Allowability                                          Costs            Awards
    Fundraising Labor                                                    $3,489
    Claimed Costs Exceeded Invoice                                          28 1
    Living Allowance Paid After Member Stopped Service                    3,244
    Unnecessary Costs                                                       108
    Overclaimed Living Allowance                                         13,525
    Underclaimed Labor Costs                                              (477)
    Unreconciled Differences                                                630
    Donated Servicesh4aterials                                            3,908
    Recalculated Administrative Costs                                       884
    No High School Diploma or Equivalent                                                    $4,725
    Member Did Not Complete Service Term                                                     1,250
    Ineligible Member Service Provided                                                       1.800
    Total




                                                                                         Education
    Questioned for Support                                               Costs            Awards
    Inadequate Performance Evaluations
    Missing Invoice/Receipt
    Unsupported Labor Costs
    Total                                                               $19.586             $29.6 12
        Details of questioned costs and questioned education awards appear in the Independent Auditors'
Report. Schedules A through E detail cost and education exceptions by award and are summarized
below.


                                                              Education Awards
                               Costs Questioned                  Questioned
   Grant No.               Allowability   Support         Allowability   Support           Schedule




   Total



Exit Conference

        We held an exit conference with Commission and Corporation representatives on April 5 , 2004.


Follow Up on Prior Audit Findings

         The Corporation's OIG performed a Pre-Audit Survey of the Commission in Fiscal Year 2000
and issued Office of Inspector General Report No. 01-22, dated October 20,2000. Our audit followed up
on the status of findings and recommendations from that report (see Attachment A).
                                           auditors advisors
                                 --




January 3 1,2004


Office of Inspector General
Corporation for National and Community Service


                              INDEPENDENT AUDITORS' REPORT


         We have audited costs claimed by the South Carolina Commission on National and Community
Service for Program Years (PYs) 2000-200 1, 200 1-2002, and 2002-2003 for the awards listed below.
These costs, as presented in the Consolidated Schedule of Claimed and Questioned Costs and grant-
specific Schedules of Claimed and Questioned Costs (Schedules A through E), are the responsibility of
Commission management. Our responsibility is to express an opinion on the consolidated and grant-
specific schedules based on our audit.

Program                                  Award No.              Award Period             Audit Period
Administratibe
Program Development Assistance
  and Training (PDAT)
Disability
AmeriCorps C'ompetitive
AmeriCorps k'ormula
AmeriCorps IIomeland Security
AmeriCorps FJromise Fellows
Learn and Serve



         We conducted our audit in accordance with audit standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the United
States. These standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting amounts and disclosures in the financial schedules. An audit also includes
assessing accounting principles used and significant estimates made by management, as well as
evaluating overall financial schedule presentation. We believe that our audit provides a reasonable basis
for our opinion on costs claimed.

        The Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules of
Claimed and Questioned Costs are intended to present allowable costs incurred under the awards in
accordance with Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, other applicable OMB circulars, and award terms and conditions.
Therefore, these are not intended to be complete presentations of the Commission's revenues and
expenses. These schedules also identify certain questioned education awards. These awards are not
funded by Corporation grants and thus are not included in claimed costs. As part of our audit, however,
we determined the effect of all member eligibility issues on these awards.

        In our opinion, except for questioned costs in the Consolidated Schedule of Claimed and
Questioned Costs, the financial schedules referred to above present fairly, in all material respects, costs
claimed by the Commission for the period July 1,2000, through September 30,2003, in conformity with
OMB Circular A-87, other applicable OMB circulars, and award terms and conditions.

         In accordance with Government Auditing Standards, we have also issued a report dated January
3 1, 2004, on our consideration of the Commission's internal control and compliance with laws and
regulations. This report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering audit results.

        This report is intended solely for the information and use of the OIG, Corporation management,
the Commission, and the U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.


COTTON & COMPANY LLP

   .--<&&
     -
          -=/
Sam A. ~ a d l eCPA,
                ~ , CGFM
Partner
               SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
                  CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                                                                                            Education Awards
                                                                    Costs Questioned           Questioned
                                    Approved      Claimed
 Award No.          Program          Budget        Costs         Allowability
                                                                     ---        Support   Allowability   Support    Schedule
01 SCSSC05 1    Administrative       $645,15 1     $552,797                                                            A
02PDSSCO5 1     PDA'r                 2 14,000        153,016
0 1 DSCSC040    Disability             106,668         78,698
00ASCSC042      AmeriCorps           1,119,238     1 ,O 13,268      $4,932                    $5,975     $16,538       B
                Competitive
00ASFSC042      AmeriCorps           3,704,477     2,779,498         16,122      $1,503        1,800      13,074       C
                Formula
02AHHSC042      AmeriCorps            297,476        1 18,144                    10,351                                D
                Homeland Security
01 APSSC042     AmeriCorps              82,800        38,549
                Promise Fellows
00LCSSC04 I     Learn and Serve        408,000      325,938          4,538        7.732                                E
                Total               $6.577.8 10   $5:059:908       $25.592      $19.586       $7.775     $29.6 12
                                                                                            SCHEDULE A


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                          AWARD NO. OlSCSSCOSl
                         ADMINISTRATIVE GRANT
                  JANUARY 1,2001, TO SEPTEMBER 30,2003

        -
         Administrative Grant                                                              Note
         Approved Budget (Federal Funds)                                  $645.151

         Claimed Costs                                                    $552,797          1



1.    The Commission claimed a $4,352 fee for membership in the American Association of State
      Service Commissions, an organization that attempts to influence government through lobbying
      efforts that include:

              Educating members of Congress and State legislators on the value of volunteer programs.

              Promoting Federal legislation designed to provide a tax-free education award and living
              allowance, streamline programs providing grant awards, provide State commissions with
              additional funding for operations, reduce the match necessary for Federal funds, and
              provide for portability of the education award.

      According to OMB Circular A-87, Attachment B, Section 30, Memberships, subscriptions, and
      projcxsional activities, Paragraph (e), costs of membership in organizations substantially engaged
      in lobbying are unallowable.

      Further, 45 CFR   5   1230.100, Conditions on use of funds, Paragraph (a), states:

              No appropriated funds may be expended by the recipient of a Federal contract,
              grant, loan, or cooperative agreement to pay any person for influencing or
              attempting to influence an officer or employee of any agency, a Member of
              Congress, an officer or employee of Congress, or an employee of a Member of
              Congress in connection with any of the following covered Federal actions: the
              awarding of any Federal contract, the making of any Federal grant, the making of
              any Federal loan, the entering into of any cooperative agreement, and the
              extension, continuation, renewal, amendment, or modification of any Federal
              contract, grant , loan, or cooperative agreement.

      While we identify these costs in this report, we will not question the $4,352 membership fee as
      unallowable, because the OIG is making a final determination regarding this issue.
                                                                   SCHEDULE B


 SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
        SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                     AWARD NO. 00ASCSC042
                   AMERICORPS-COMPETITIVE
                   JULY 1,2000, TO JUNE 30,2003


                                                    Questioned
            Approved      Claimed      Questioned   Education
             Budget        Costs         Costs       Awards       Reference
City Year    $872,900      $834,154       $3,968     $14,175     Schedule B- 1
Winthrop      246,338       179.1 14         964       8,338     Schedule B-2
Total       $1.1 19.238   $1.013.268      $4.932     $22.5 13
                                                                                            SCHEDULE B-1


        SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
          CC)RPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                            AWARD NO. 00ASCSC042
                          AMERICORPS-COMPETITIVE
                          JULY 1,2000, TO JUNE 30,2003

     Citv Year                                                                                    Notes
     Approved Budget (Federal Funds)

     Claimed Costs

     Questioned for Allowability
        Fundraising labor
        Claimed cost exceeded invoice
        Recalculated administrative costs
     Total Questioned for Allowability

     Questioned for Support, Education Award
       Inadequate performance evaluations

     Questioned for Allowability, Education Award
       No GEI) or equivalent



1.        City Year claimed salary costs for employees performing fundraising activities. In PY 2002-
          2003, City Year revised its timekeeping system to include electronic time sheets. In that
          conversion, its accounting system did not eliminate development labor charged on employee time
          sheels before it allocated labor costs to programs or categories identified on time sheets, including
          this subgrant and City Year's National Direct grants with the Corporation.

           OME3 Circular A-122, Attachment B, Paragraph 23(b), Interest, fundraising, and investment
           manqement costs, states that costs of organized fundraising, including financial campaigns,
           endowment drives, solicitation of gifts and bequests, and similar expenses incurred solely to raise
           capital or obtain contributions are unallowable.

           During PY 2002-2003, the executive director of City Year incurred $9,336 of fundraising labor
           costs allocated to reimbursed and match costs under this program, as well as reimbursed costs and
           match under City Year's National Direct grant, based on the number of AmeriCorps members in
           each program in South Carolina. We questioned $3,489, which represents the amount reimbursed
           under this grant. Because City Year had incurred match costs in excess of the required match, the
           amount of fundraising labor claimed as match does not cause City Year to be in noncompliance
           with its matching requirements.

2.         For f'Y 2001-2002, City Year claimed $3,938 paid to a vendor that provided meeting space for a
           retreat. The amount was charged to the grant using an adjusting journal entry; the supporting
     invoice was, however, in the amount of $3,657. We questioned the $281 difference between
     claimed and actual costs in accordance with OMB Circular A-122, Attachment A, Paragraph 2(g),
     Factors affecting allowability of costs, which requires all costs to be adequately documented.

3.   City Year exceeded its allowable administrative costs in PYs 2001-02 and 2002-03 as the result
     of our questioning claimed costs. AmeriCorps Provision (C)(22), Administrative Costs, states
     that administrative costs cannot exceed 5 percent of total Corporation funds expended.

     We questioned $198 of administrative costs as follows:

      Recalculated Administrative Costs                       PY 2001-2002     PY 2002-2003
      Claimed Costs Excluding Administrative Costs                $284,309           $2 12,682
      Less Questioned Costs from Notes Above                           28 1              3,489
      Direct Costs per Audit                                       284,028            209,193
      Administrative Costs Percentage                                 5.26                 5.26
      Administrative Costs per Audit                                14,940              1 1,004
      Administrative Costs Claimed                                  14,955              11,187
      Questioned Administrative Costs                                  $15                $183

4.   City Year did not properly prepare mid-term and final member performance evaluations in PY
     2000-2001. Of the seven members tested, one member did not sign the final evaluation. Another
     member did not receive a final evaluation, and neither she nor her supervisor signed her mid-term
     evaluation. Yet, both of the members earned education awards.

     45 CFR $ 2522.220(d), Participant performance review, states that, for purposes of determining a
     participant's eligibility for a second or additional term of service and/or for an AmeriCorps
     education award, each AmeriCorps program must evaluate the performance of a participant at
     mid-term and upon completion of a participant's term of service. Without properly prepared
     evaluations, we were unable to determine if the members received that evaluation and thus were
     eligible for education awards. We questioned total education awards for both members of
     $9,450.

5.   In PJ' 2000-2001, City Year did not notify the Trust that a member who completed his service
     term had not completed his GED. The member filed a written agreement to obtain the GED
     before using the education award. City Year, however, marked the member as eligible for an
     education award on the Exit Form and did not submit a signed memorandum to the Trust
     notifying it that the member had not completed his GED.

     Per 45 CFR tj 2522.200(a), Eligibility:

             An AmeriCorps participant must . . . [hlave a high school diploma or its
             equivalent; or . . . [nlot have dropped out of elementary or secondary school to
             enroll as an AmeriCorps participant and must agree to obtain a high school
             diploma or its equivalent prior to using the education award.
Also, according to the 2001 AmeriCorps Program Director's Handbook, if a member has not
completed a GED by the end of a service term, but has otherwise successfully completed the
term. the program director must submit the ExitIEnd of Term of Service form with a signed
memorandum indicating that the member did not complete the GED. Thus, the member would
not be entitled to use the education award until the Trust received documentation of successful
completion of the GED.

Unless notified that a member has not completed a GED, the Trust is unable to ensure member
eligibility before disbursing the education award. We questioned the education award of $4,725
as unallowable.
                                                                                       SCHEDULE B-2


       SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
              SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                           AWARD NO. 00ASCSC042
                         AMERICORPS-COMPETITIVE
                         JULY 1,2000, TO JUNE 30,2003

     Winthrop                                                                                 Notes
     Approved Budget (Federal Funds)                                             $246:33 8

     Claimed Costs                                                              $179,114

     Questioned for Allowability
      Living allowance paid after member stopped service

     Questioned for Support, Education Award
      Inadequate performance evaluations

     Questioncd for Allowability, Education Award
      Member did not complete service term



1.       Of the seven members tested, three members received additional payments after they had exited
         the program without completing the required service hours. The program director noted that all
         members received living allowances during school breaks; however, these three members,
         without notifying the program director, did not return to the program after the break. Living-
         allowance payments made to members after submission of final time sheets totaled $1,134.

         Per AmeriCorps Provision (B)(l l)(b), Living Allowance Distribution, the living allowance is
         designed to help members meet necessary living expenses incurred while participating in the
         Amer-iCorps Program. If a member is no longer participating in the program, the member should
         not receive the living-allowance payment. We questioned $964 of overpaid living allowances (85
         percent of $1,134).

2.       Winthrop did not properly conduct and maintain documentation of final evaluations for all
         members. Three of seven members tested did not receive final evaluations.

         45 CFR 9 2522.220(d), Participantperformance review, states that, for purposes of determining a
         participant's eligibility for a second or additional term of service andlor for an AmeriCorps
         education award, each AmeriCorps program must evaluate the performance of a participant mid-
         term and upon completion of a participant's term of service. Without properly prepared
         evaluations, we were unable to determine if the members received that evaluation and thus were
         eligible for education awards. We questioned $7,088 in education awards made to members who
         did not receive necessary performance evaluations.
3.   Winthrop provided an education award to a quarter-time member who did not complete the
     required number of service hours. Service hours reported on member time sheets did not agree to
     total hours recorded in the Web Based Reporting System (WBRS).

     AmeriCorps Provision (B)(12), Post-Service Education Awards, states that a quarter-time
     member must serve a minimum of 450 hours to receive an education award. We questioned the
     education award of $1,250 as unallowable.
                                                                        SCHEDULE C


        SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
               SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                            AWARD NO. 00ASFSC042
                            AMERICORPS-FORMULA
                      AUGUST 1,2000, TO SEPTEMBER 30,2003

                                                   --        --    -   --       ----



                                                            Questioned
                        Approved      Claimed    Questioned Education
                         Budget        Costs       Costs     Awards         Reference

Benedict                             $1 18,492
Clarendon 2                           130,524
Community in Schools                   84,127
Crisis Ministries                      69,445
Edgefield                              67,542
HFHI                                  407,l 12     $2,865                   Schedule C- l
Lancaster                             343,326
Palmetto                              198,902
Pickens                               452,64 1     13,842                   Schedule C-2
Raven                                  4 1,709
Richland                              27 1,976
USCC                                  170,343
USCS                                  224,494                     $1,800    Schedule C-3
Winthrop                              198,865         918         13,074    Schedule C-4
De-Obligated Funds

Total                  $3.704.477   $2.779.498    $1 7.625    $14.874
                                                                                       SCHEDULE C-1


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00ASFSC042
                         AMERICORPS-FORMULA
                   AUGUST 1,2000, TO SEPTEMBER 30,2003


       HFHI                                                                           Notes

       Approved Budget (Federal Funds)                                $537.872

       Claimed Costs

       Questioned for Support
          Unsupported labor cost

       Questioned for Allowability
          Living allowance paid after member was released               $1.497           2



I.    HFHl did not have adequate support for labor and related fringe benefit costs of $38,274 for the
      program coordinator, which were claimed as grantee match in PY 2000-200 1.

      According to OMB Circular A-87, Attachment B, Section 1 1 , Compensationfor personnel
      services, Subparagraph
                          h(3):

              Where employees are expected to work solely on a single Federal award or cost
              objective, charges for their salaries and wages will be supported by periodic
              certifications that the employees worked solely on that program for the period
              covered by the certification. These certifications will be prepared at least semi-
              annually and will be signed by the employee or supervisory official having first
              hand knowledge of the work performed by the employee.

      HFHl stated that the program director worked full time for the AmeriCorps program and prepared
      time sheets for the whole period. It did not, however, maintain time sheets to support allocated
      direct labor costs. We questioned labor and related costs (health, dental, FICA, and
      unemployment insurance) from claimed matching costs.

      As a result of this questioned match, HFHl did not meet the minimum cost share requirements
      specified in AmeriCorps Provision (B)(13)(a), Matching Requirements. Grantees are required to
      match a minimum of 33 percent of program operating costs (categories B-F), which include other
      member costs, staff, operating costs, internal evaluation and administration. For HFHI to comply
      with matching requirements, Federal costs must be designated as match costs. We questioned
      Federal costs of $1,368, as follows:
Claimed Program Operating Costs
Federal Costs, Program Operating Costs
Less Questioned Claimed Costs
Total Federal Costs per Audit

 Claimed Matching Costs, Program Operating Costs                       $41,718
 Less Questioned Matching Costs                                         38,274
 Total Matching Costs per Audit                                                           3,444
 Total Grant Costs per Audit, Program Operating Costs                                   $14.182

 Overclaimed Federal Share
 Federal Costs per Audit, Program Operating Costs
 Less Maximum Corporation Share (67 percent of $14,582)
 Overclaimed Federal Share


HFHI paid a member a living allowance of $1,761 after the member was released for cause in PY
2000-2001. According to the current program director, HFHI's accounting department was not
notified that the member had been released for cause.

In accordance with AmeriCorps Provisions, Section (B)(9)(b), Re1ease)om Participation,
members are not eligible to receive any benefits or service hour credit upon release from service
for cause. We questioned the Federal share of expenditures of the living allowance claimed,
amounting to $1,497 (85 percent of $1,76 1 ).
                                                                                         SCHEDULE C-2


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00ASFSC042
                         AMERICORPS-FORMULA
                   AUGUST 1,2000, TO SEPTEMBER 30,2003


     Pickens
     --                                                                                   Notes
      Approved Budget (Federal Funds)                                     $51 1.139

      Claimed Costs                                                       $452,64 1

      Questioned for Allowability
         Claimed unnecessary costs                         $108                             1
         Cherclaimed living allowance                     13,525                            2
         Linderclaimed labor costs                         (477)                            3
         Recalculated administrative Cost                    686                            4
      Total Questioned for Allowability                                     $13.842



1.    Pickens claimed costs for unnecessary items, including $25 for cookies and cake, $56 of luncheon
      costs that exceeded the school district's per diem limit (PY 2001-2002), and $27 for a flower
      arrangement (PY 2002-2003). We questioned $108 of unnecessary costs in accordance with
      OMB Circular A-87, Attachment B, Section 18, Entertainment, which states that costs of
      entertainment such as meals and gratuities are unallowable; and Section 41 (b), Travel Costs,
      which states that costs incurred by employees and officers for travel cannot exceed charges
      normally allowed by the governmental unit in its regular operations as a result of the
      governmental unit's policy.

2.    Pickcns submitted an inaccurate FSR, dated August 10,200 1, that over-reported Category A
      (living allowance) expenses by $1 5,9 12 under the AmeriCorps grant ($13,525 of Federal costs
      and $2,387 in matching funds) in PY 2000-2001. This error was identified during our audit, and,
      in response, the subgrantee repaid the overclaimed costs of $14,236 ($13,525 for the living
      allowance, and $71 1 for the corresponding Administrative costs) to the Commission on October
      30, 2003. The Commission has yet to return the funding to the Corporation.

3.    Pickens claimed labor costs in PY 2000-2001 for a clerical assistant based on the percentage of
      time estimated in the AmeriCorps program budget. According to OMB Circular A-87,
      Attachment B, Subparagraph 1 I(h)(4), employees who work on multiple activities must provide
      personnel activity reports or equivalent documentation. Subparagraph 1 1 (h)(5) requires
      personnel activity reports to meet the following standards:

              (a) They must reflect an after-the-fact distribution of the actual activity of each
              employee,
             (b) They must account for the total activity for which each employee is
             compensated,
             (c) They must be prepared at least monthly and must coincide with one or more
             pay periods, and
             (d) They must be signed by the employee.

     Pickens representatives were not aware that budget estimates (i.e., estimates determined before
     the services are performed) do not qualify as support for charges to awards.

     We requested that Pickens recalculate actual labor costs for all employees based on time records.
     This review resulted in actual labor costs exceeding claimed costs by $477. We recommend
     increased labor costs of $477.

4.   Pickens exceeded its allowable administrative costs in PY 2000-2001 as the result of our
     questioning of claimed costs. AmeriCorps Provision (C)(22), Administrative Costs, states that
     administrative costs cannot exceed 5 percent of the total Corporation funds expended.

     We questioned $686 of administrative costs as follows:

      Recalculated Administrative Costs                       PY 2000-2001
      Claimed Costs Excluding Administrative Costs              $106,928
      Less Questioned Costs from Notes Above                      13,048
      Direct Costs per Audit                                      93,880
      Administrative Costs Percentage                               5.26
      Administrative Costs per Audit                               4,938
      Administrative Costs Claimed                                 5,624
      Questioned Administrative Costs                              $686
                                                                                       SCHEDULE C-3


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00ASFSC042
                         AMERICORPS-FORMULA
                   AUGUST 1,2000, TO SEPTEMBER 30,2003


       USCS                                                                           Note

       Approved Budget (Federal Funds)                                $289.321

       Claimed Costs                                                  $224.494

       Questioned for Allowability, Education Award
          Ineligible member services provided                            $1 .SO0         1



1.    USCS claimed living-allowance costs paid to a member who did not perform eligible service. In
      PY 2002-2003, one member served two months in Mexico, accumulating 74 percent of her
      service hours. The member received living-allowance payments of $345 and accrued service
      hours during that time.

      According to 45 CFR   5 25 10, OveralI Purposes and Definitions:
              The Corporation's mission is to engage Americans . . . in community-based
              service. This service will address the Nations [sic] educational, public safety,
              human, and environmental needs to achieve direct and demonstrable results.

      Service in Mexico does not accomplish the Corporation's stated purpose to address the needs of
      the United States. Therefore, the living allowance paid to the member for her service in Mexico
      is unallowable. We did not question the claimed $345 living allowance, however, because USCS
      underclaimed Federal costs of $1,72 1 as the result of a financial reporting error. We questioned
      the $1,800 education award, because the member did not complete the required number of
      acceptable service hours to earn the award.
                                                                                     SCHEDULE C-4


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00ASFSC042
                         AMERICORPS-FORMULA
                   AUGUST 1,2000, TO SEPTEMBER 30,2003

     Winthrop                                                                      Notes
     Approved Budget (Federal Funds)                                $238,597
                                                                    --

     Claimed Costs                                                  $198,865

     Questioned for Support
       Missing invoicelreceipt

     Questioned for Allowability
       Living allowance paid after member was released                  $783          2

     Questioned for Support, Education Award
       Mid-term and final evaluation



1.    Winthrop could not provide documentation to support $135 of Federal claimed costs for PY
      2000-2001. As a result, we were unable to determine the nature of the expenditure and whether it
      was reasonable and allowable. We questioned the $135 as unsupported in accordance with OMB
      Circular A-2 1, Subparagraph A(2)(e). Policy Guides, which states that "the accounting practices
      of individual colleges and universities . . . must provide for adequate documentation to support
      costs charged to sponsored agreements."

2.     One of the 13 sampled members received living-allowance payments for three and one-half
       months after he stopped serving in the program without completing his required minimum service
       hours. The program director noted that all members received living allowances during school
       breaks. This member, without notifying the program director, did not return to the program after
       the break. Living-allowance payments made to the member after his final time sheet was filed
       totaled $92 1 .

       AmeriCorps Provision (B)(l I)(b), Living Allowance Distribution, states that living allowances
       are designed to help members meet necessary living expenses incurred while participating in the
       AmeriCorps Program. If a member is no longer participating in the program, the member should
       not receive the living-allowance payment. We questioned the $783 Federal share of overpaid
       living allowances (85 percent of $921).

3.     Winthrop did not properly conduct and maintain mid-term and final evaluations for all members.
       In PY 2000-200 1, one of six members tested did not receive a final evaluation, two did not have
       mid-term or final evaluations, and one did not sign her mid-term evaluation. In PY 2001-2002,
four of seven members tested did not sign their final evaluations, and one member did not receive
a mid-term evaluation.

45 CFR $ 2522.220(d) requires mid-term and final performance evaluations. Without properly
prepared evaluations, we were unable to determine if members received that evaluation and thus
were eligible for education awards. Of the nine members that did not receive or complete mid-
term or final evaluations, six received education awards. We questioned $13,074 in education
awards made to these members.
                                                             SCHEDULE D


SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
       SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                    AWARD NO. 02AHHSC042
               AMERICORPS-HOMELAND SECURITY
            SEPTEMBER 1,2002, TO SEPTEMBER 30,2003


                    Approved     Claimed      Questioned
                     Budget       Costs         Costs      Reference

OAG                   $297,476    $1 18,1@     $10,35 1    Schedule D- 1

Total                $297.476     $1 18.144    $10.351
                                                                                        SCHEDULE D-1


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 02AHHSC042
                    AMERICORPS-HOMELAND SECURITY
                 SEPTEMBER 1,2002, TO SEPTEMBER 30,2003


       OAG                                                                              Note
       Approved Budget (Federal Funds)                                 $297.476

       Claimed Costs                                                   $1 18.144

       Questioned for Support
          Unsupported labor cost allocation



1.    OAC; could not adequately support claimed labor costs for all employees who worked a portion
      of their time on the AmeriCorps program. OAG claimed 33 percent of labor costs for one staff
      member based on a budgeted estimate of effort and 3.125 percent of labor costs for seven other
      staff members who certified their time-and-effort levels on a semi-annual basis.

      According to OMB Circular A-87, Attachment B, Subparagraph 1 l(h)(4), employees who work
      on multiple activities must provide personnel activity reports or equivalent documentation.
      Section 1 l(h)(5) requires personnel activity reports to meet the following standards:

              (a) They must reflect an after-the-fact distribution of the actual activity of each
              employee,
              (b) They must account for the total activity for which each employee is
              compensated,
              (c) They must be prepared at least monthly and must coincide with one or more
              pay periods, and
              (d) They must be signed by the employee.

      We questioned $1 O,35 1 of claimed Federal labor costs as unsupported.
                                                                 SCHEDULE E


SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
       SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                    AWARD NO. 00LCSSC041
                      LEARN AND SERVE
              SEPTEMBER 1,2000, TO AUGUST 31,2003


                     Approved    Claimed     Questioned
 Subgrantee           Budget      Costs        Costs       Reference
 Commission          $171,476   $1 18,782
 Charleston                        10,880
 York                             2 1,575       $299      Schedule E- 1
 Clarendon                        32,640        3,908     Schedule E-2
 Clemson                           26,04 1
 Eldercare                         10,000
 Hampton                          2 1,760
 Irmo Chapin                      32,640        7,732     Schedule E-3
 Rocb. Hill                        10,000
 St. Andrew's                      1 1,087
 UW of Pickens                    20,634          33 1    Schedule E-4
 Children's Garden                  9,899
 Total               $408,000   $325.938      $12.270
                                                                                      SCHEDULE E-1


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00LCSSC041
                            LEARN AND SERVE
                   SEPTEMBER 1,2000, TO AUGUST 31,2003


       York                                                                           Note
       Approved Budget (Federal Funds)                                 $32.542

       Claimed Costs                                                   $21.575

       Questioned for Allowability                                        $299          1



1.    York claimed $10,880 in Federal costs for PY 2001-2002; however, its accounting detail
      supported Federal costs of $10,581. In accordance with 45 CFR $ 2543.21(b), Standards for
      Jinancial management system, subgrantee financial management systems must provide
       "[alccurate, current and complete disclosure of the financial results of each federally-sponsored
      project or program." We questioned the $299 difference between claimed costs and costs per the
      accounting records.
                                                                                    SCHEDULE E-2


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00LCSSC041
                            LEARN AND SERVE
                   SEPTEMBER 1,2000, TO AUGUST 31,2003


       Clarendon                                                                   Note
       Approved Budget (Federal Funds)

       Cla~medCosts

       Questioned for Allowability
          Donated serviceslmaterial



1.    Clarendon claimed costs for in-kind donations from vendors. Three vendors provided services
      and submitted invoices to Clarendon; Clarendon sent checks for payment and recorded the
      transactions as grant expenses. Subsequently, the vendors notified Clarendon that they would not
      be cashing the checks, as they had decided to donate those goods or services. Clarendon did not
      adjust costs claimed to the Commission to reflect these changes.

      In accordance with OMB Circular A-87, Attachment B, Paragraph 1 1(i), the value of donated or
      volunteer services is not reimbursable either as a direct or indirect cost. Clarendon cannot be
      reimbursed for donated services. We questioned $1,745 for services provided in PY 200 1-2002,
      and $2,163 for services provided in PY 2002-2003.
                                                                                        SCHEDULE E-3


     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00LCSSC041
                           LEARN AND SERVE
                   SEPTEMBER 1,2000, TO AUGUST 31,2003


       Irmo Chapin                                                                      Note
       Approved Budget (Federal Funds)                                   $32.640
       Claimed Costs                                                     $32,640

       Questioned for Support
          Unsupported Salary and Fringe Costs



1.    Irmo Chapin could not adequately support claimed labor costs for the program director, who
      worked a portion of time on the Learn and Serve program. It claimed program director labor
      costs of $2,440, $2,646, and $2,646 in PYs 2000-2001, 2001-2002, and 2002-2003, respectively,
      as Federal costs, and $10,880 in PY 2002-2003 as grantee match based on the budgeted estimate
      of effort.

      According to OMB Circular A-87, Attachment B, Subparagraph 1 1 (h)(4), employees who work
      on n~ultipleactivities must provide personnel activity reports or equivalent documentation.
      Subparagraph 1 l(h)(5) requires personnel activity reports to meet the following standards:

              (a) They must reflect an after-the-fact distribution of the actual activity of each
              employee,
              (b) They must account for the total activity for which each employee is
              compensated,
              (c) They must be prepared at least monthly and must coincide with one or more
              pay periods, and
              (d) They must be signed by the employee.

      Irmo Chapin did not maintain after-the-fact reports of its activities.

      We questioned $7,732 of claimed Federal labor costs as unsupported.
                                                                                     SCHEDULE E-4


     SOUTH CAROLINA COMMISSION ON NATIONAL, AND COMMUNITY SERVICE
            SCHEDULE OF CLAIMED AND QUESTIONED COSTS UNDER
       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                         AWARD NO. 00LCSSC041
                            LEARN AND SERVE
                   SEPTEMBER 1,2000, TO AUGUST 31,2003


       UM' of Pickens                                                               Note
       Approved Budget (Federal Funds)                               $2 1.760

       Claimed Costs                                                 $20.634

       Questioned for Allowability                                      $331           1



1.    UW of Pickens claimed $10,868 in Federal costs for PY 2002-2003; its accounting detail,
      however, supported Federal costs of $10,537. In accordance with 45 CFR 5 2543.2 1(b),
      subgrantee financial management systems must provide "[alccurate, current and complete
      disclosure of the financial results of each federally-sponsored project or program." We
      questioned the $33 1 difference between claimed costs and costs per the accounting records.
        SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
            NOTES TO SCHEDULE OF CLAIMED AND QUESTIONED COSTS
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS


                    SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Accounting

         The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and the Commission. The information presented in the schedules
has been prepared from reports submitted by the Commission to the Corporation and accounting records
of the Commission and its subgrantees. The basis of accounting used in the preparation of these reports
differs from accounting principles generally accepted in the Unites States of America, as discussed below

Equipment

        No equipment was purchased and claimed under Federal or match share of cost for the period
within our audit scope.

Inventory

        Minor materials and supplies are charged to expense during the period of purchase.
                                                         auditors + advisors
.. .-- ----




              January 3 1,2004


              Office of Inspector General
              Corporation for National and Community Service


                                          INDEPENDENT AUDITORS' REPORT ON
                                         COMPLIANCE AND INTERNAL CONTROL


                      We have audited costs claimed by the South Carolina Commission on National and Community
              Service to the Corporation for National and Community Service for the following awards and have issued
              our report thereon dated January 3 1,2004. We conducted our audit in accordance with auditing standards
              generally accepted in the United States of America and Government Auditing Standards issued by the
              Comptroller General of the United States.

              Program                                   Award No.              Award Period            Audit Period
              Administrati\je
              Program Development Assistance
                and Training (PDAT)
              Disability
              AmeriCorps Competitive
              AmeriCorps Formula
              AmeriCorps Homeland Security
              AmeriCorps Promise Fellows
              Learn and Serve



              COMPLIANCE

                      As part of obtaining reasonable assurance about whether final schedules are free of material
              misstatements, we performed tests of compliance with certain provisions of laws, regulations, and grants,
              noncompliarice with which could have a direct and material effect on the determination of financial
              schedule amounts. Providing an overall opinion on compliance with these provisions was not an
              objective of our audit and, accordingly, we do not express such an opinion. Results of our tests disclosed
              instances of noncompliance that are required to be reported under Government Auditing Standards
              (Finding Nos. 1-4 and 6-8, discussed below).
INTERNAL CONTROL OVER FINANCIAL REPORTING

         In planning and performing our audit, we obtained an understanding of the Commission's internal
control over financial reporting to determine audit procedures for the purpose of expressing our opinion
on the financial schedules and not to provide assurance on internal control over financial reporting. We
noted, however, certain matters involving internal control over financial reporting and its operation that
we consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of internal control over financial reporting
that, in our judgment, could adversely affect the Commission's ability to record, process, summarize, and
report financial data consistent with assertions of management in the financial schedules (Finding Nos. 1-
5 and 9, discussed below).

        A material weakness is a condition in which the design or operation of one or more of the internal
control elements does not reduce to a relatively low level the risk that misstatements in amounts that
would be material in relation to the financial schedules being audited may occur and not be detected
within a timely period by employees in the normal course of performing their assigned functions. Our
consideration of the internal control structure would not necessarily disclose all matters in the internal
control structure that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. We consider the reportable
conditions in Finding Nos. 2 and 3 to be material weaknesses.

FINDINGS

1.      The Commission claimed unallowable costs and costs for which no documentation was
        provided to support allowability.

         The results of our subgrantee visits identified several sites that claimed unallowable costs, or
costs for which there was no supporting documentation. In some cases, the subgrantees were not aware
that costs had to be claimed in accordance with cost principles, or were not aware of certain requirements
contained in the cost principles. Also, the Commission did not charge labor costs to the Administrative
and Disability grants in accordance with Office of Management and Budget (OMB) Circular A-87.

         The most significant questioned costs relate to labor costs being charged to Corporation grant
awards based on budgets or estimated levels of effort. OMB Circulars A-87 and A-122 require that
claimed labor costs be supported by after-the-fact activity reports for each employee (professionals and
nonprofessionals) whose compensation is charged, in whole or in part, directly to awards. In certain cases
budgets may be charged during the year for easier accounting, but comparisons and adjustments to the
actual level must be made. Six of the 13 subgrantees selected for testing did not have adequate
procedures in place to ensure proper allocation of labor charges: City Year, Pickens, HFHI, OAG,
Clarendon, and Irmo Chapin. This internal control weakness may not have resulted in questioned costs,
because alternative audit procedures were used, or subgrantees had eligible costs incurred that exceeded
claimed costs. In general, the subgrantees stated that they were unaware that labor costs had to be
supported by after-the-fact time records, including certifications or time sheets.

         Additionally, subgrantees claimed other direct costs that were unallowable with respect to cost
circulars. Unallowable costs included unnecessary costs, costs not allocated appropriately to the grant,
and amounts that exceeded actual expenses. Finally, we noted that subgrantees could not always support
claimed costs. Documentation may have been lost, or proper support may not have been maintained. In
some instances, subgrantees noted that they were not aware of the applicable cost principle, or errors were
made in accumulating expenses.
        Recommendation: We recommend that the Corporation follow up with the Commission to
determine if questioned and unsupported amounts should be disallowed and recovered. Additionally, we
recommend that the Corporation ensure that the Commission better train subgrantees on the allowability
of costs and the documentation required to support claimed costs.

2.      The Commission and certain subgrantees did not submit all required Financial Status
        Reports (FSRs), Progress Reports, and Periodic Expenditure Reports (PERs)/Final
        Reimbursement Claims in a timely manner.

         FSRs. The Commission and its subgrantees were required to submit FSRs for the periods ending
September 30 and March 3 1. The Commission interpreted this provision to mean that costs were reported
only for periods ending on these dates, and did not require that its subgrantees submit the final FSRs for
PYs 2001-2002 and 2002-2003. The result was that not all costs incurred by the subgrantees were
reported on their FSRs. Additionally, the costs claimed on Commission aggregate FSRs did not represent
all costs incurred. The Corporation cannot properly conduct financial management based on costs
claimed on aggregate FSRs. We identified this problem during our audit, and, in response, the
Commission submitted five of the required aggregate FSRs.

        Subgrantees are reimbursed by the Commission for program expenditures by submitting a State
expenditure reimbursement form, which is not necessarily reconciled to FSR reporting. As a result, we
could not use FSRs to represent "claimed" costs for this audit. Rather, the Commission had to create
cumulative claimed costs using internal Commission accounting records of costs incurred and cumulative
payments made to subgrantees.

        In addition to FSRs that were not filed, certain FSRs were not filed within the prescribed time
limits. A summary of untimely submission of FSRs by the Commission includes:

                AmeriCorps-Competitive: We reviewed nine periodic FSRs and a final FSR required
                by the provision; one was not submitted, and one was submitted late.

                AmeriCorps-Formula: Of nine FSRs tested, one was not submitted, and three were
                submitted late.

                AmeriCorps-Homeland Security: Of three FSRs required, one was not submitted on
                time and was incomplete as of our audit date.

         According to the subgrantee grant agreement, subgrantees were required by the Commission to
file an FSR with the Commission quarterly for PY 2000-2001. For PYs 2001-2002 and 2002-2003, three
FSRs were required to be filed each year based on the subgrantee grant agreement. We noted the
following exceptions:

                City Year submitted 6 of the required 10 FSRs late.

                Winthrop filed 4 of 10 FSRs late

                HFHI filed 1 of 10 FSRs late.

                Pickens filed 3 of 10 FSRs late and did not submit the final FSR for PY 2000-2001

                USCS filed 1 of 6 FSRs late.
        Progress Reports. The Commission is required to submit one progress report per program year
for AmeriCorps Competitive and Formula grants, as well as a final progress report. The progress reports
for both Conlpetitive and Formula grants were submitted late for PY 2000-2001.

         According to the subgrantee grant agreement, subgrantees were required by the Commission to
file a progress report with the Commission quarterly for PY 2000-2001. For PYs 2001-2002 and 2002-
2003, three progress reports were required to be filed each year based on the subgrantee grant agreement.
We noted the following exceptions:

                City Year submitted 5 of 10 progress reports late, and 1 was never submitted.

                Winthrop submitted 2 of the 10 required progress reports late.

                HFHI submitted 2 progress reports late, and did not submit the last report for PY 2000-
                200 1.

                Pickens submitted 2 of 10 progress reports late, and 2 were never submitted.

       PERsIFinal Reimbursement Claim. For PY 2000-200 1, subgrantees were required by the
Commission to submit PERs quarterly. For PYs 2001-2002 and 2002-2003, a Final Reimbursement
Claim was also required. We noted the following exceptions:

                City Year submitted 3 of 4 required PERs late in PY 2000-2001 and the final
                reimbursement claim for PY 2001-2002 was also submitted late.

                OAG did not submit the final reimbursement claim for PY 2002-2003.

                Pickens delayed submission of its June 2001 PER to include July expenditures.
                Consequently, the June PER was submitted late. The September PER was not submitted.

         The subgrantees submitted all reports noted above through the WBRS system. The Commission
stated that there were considerable problems and challenges in the first year of implementing WBRS,
which may have affected the timeliness of reports. Additionally, WBRS only tracks the date of final
submission, which may be different than the date of original submission.

       Recommendation: We recommend that the Commission implement procedures to ensure timely
submission of all FSRs, progress reports, PERs, and final reimbursement claims.

3.      Federal and grantee shares of outlays reported on FSRs were inaccurate.

         In our audit of selected subgrantees, we noted the following situations in which claimed Federal
and matching costs reported by subgrantees on FSRs and Expenditure Reports could not be supported (or
easily supported) by its accounting system.

                Pickens claimed its matching cost based on budgeted amounts instead of actual costs
                incurred.
                USCS could not easily support claimed Federal costs with accounting records. For PY
                2001-2002, it claimed estimated costs on the August 2002 PER and was reimbursed for
                those estimates. For PY 2002-2003, it did not claim all costs incurred. Also, subgrantee
                matching costs claimed on the FSRs for both program years could not be supported by
                accounting records.

                York claimed $10,880 in Federal costs for PY 2001-2002, which was the full amount of
                its award. Actual costs per its accounting records were $299 less.

                UW of Pickens claimed $10,868 in Federal costs for PY 2002-2003. Actual costs per its
                accounting records were $33 1 less.

        Recommendation: We recommend that the Commission provide training and technical
assistance to subgrantees to ensure that subgrantees submit accurate financial reports and reimbursement
requests. We also recommend that the Commission add procedures to its site visits to include
reconciliation of claimed costs to accounting records, or request accounting records on a periodic basis to
ensure accurate reporting by subgrantees.

4.      Grantee matching contributions were not properly recorded and monitored.

         Several subgrantees did not adequately segregate and accumulate AmeriCorps program matching
costs in their accounting systems, as follows:

                Costs used for match requirements were not segregated in Pickens's accounting system or
                identified as costs used for the match requirement on this Federal program. Costs
                claimed for in-kind contributions were not properly valued, and other claimed matching
                costs for labor were not adequately supported. Finally, Pickens claimed the lower of
                budgeted amounts or actual expenditures for certain matching costs.

                USCS did not consistently identify and segregate matching costs in the accounting
                system. Matching costs were accumulated in many accounts, and not all accounts were
                identified as accounts for match of a Federal grant. Some matching costs claimed were
                only transactions or sets of transactions in accounts commingled with non-program costs.

                York did not establish a separate account to record its matching for the Corporation grant.
                Claimed matching costs were included in accounts commingled with other non-program
                costs.

        In many instances, subgrantees were able to identify claimed matching costs in the accounting
system. Without proper segregation and identification, however, the possibility exists that costs can be
used as matching costs (or reimbursed costs) on other programs.

         Several subgrantees claimed unallowable matching costs, including inadequately supported labor
costs, improperly valued in-kind contributions, costs unallowable under the program, and costs without
adequate supporting documentation.

        We noted that one subgrantee did not report any significant matching costs. On OAG's June 30,
2003, FSR the Corporation's share of expenditures was 86 percent of the living allowance and 99.9
percent of other direct costs. According to AmeriCorps Provisions, the Federal share of living allowance
for members cannot exceed 85 percent, and the Federal share of other direct costs cannot exceed 67
percent. The program year had ended, OAG had not prepared the FSR for the period ending September
30,2003, and the time limit for reporting had lapsed. The subgrantee and the Commission had been
communicating about matching requirements and this reporting deadline. Yet, there was no
communication on an interim basis to ensure that the subgrantee would be able to meet its matching
requirements nor any documentation to note how costs were being accumulated and whether they were
separately recorded and identified in OAG's accounting system.

         Finally, we noted that the Commission did not segregate and accumulate match costs claimed
under its Administrative grant. The Commission's claimed matching costs were comprised of
expenditures incurred primarily for salaries and rent incurred by the State Department of Education,
program expenditures paid for by private funds, and in-kind donations. Costs incurred by the State
Department of Education were commingled with other expenditures and manually identified as matching
costs. Private funds and in-kind donations were recorded by the Commission using an internal log book.
Expenditures incurred with these private funds were not identified as Federal matching costs. Claimed
costs were manually accumulated each reporting period by the State Department of Education from
accounting records and information provided by the Commission.

       Recommendation: We recommend that the Commission review its financial monitoring
procedures and make revisions necessary to ensure that all subgrantees are adequately reporting,
accumulating, and identifying required matching costs. We also recommend that the Commission
segregate all matching costs in the State acco~untingsystem to ensure that costs are properly identified.

5.      The Commission did not include sufficient financial information, OMB Circular A-133
        audit results, and relevant past performance of grant applicants in the subgrant award
        process.

        The Commission did not include information regarding the adequacy of the applicants' financial
management systems and results of past OMB Circular A-133 audits in its subgrant award process.
Subgrantee selections are made by peer reviewers (commissioners and non-commissioners recruited
based on grants experience) who receive applications prepared by the applicants and reviewed by
Commission employees for technical errors. In addition to the grant application, the peer reviewers relied
only on questionnaires completed by applicants for financial risk assessment.

         The questionnaire provided no history of internal control weaknesses or compliance issues to the
selection team. Commission management stated that most applicants were part of the State Single Audit,
and thus there was no need to perform a financial risk assessment. Most State agency applicants,
however, were not covered by the State Single Audit. In addition, some applicants were not State
agencies.

        Recommendation: We recommend that the Commission evaluate all aspects of subgrantee past
performance, including financial system adequacy and OMB Circular A-133 audit results, and
consistently include past performance results in information provided to peer review selection teams.

6.      Certain subgrantees did not prepare, approve, and report member time sheets properly.

         Eight. subgrantees did not properly prepare or maintain member time sheets. Problems included
time sheets that were not signed by the member or supervisor, changes to member time sheets that were
not initialed by members or supervisors, and time sheets on file that were fax copies rather than originals.
Additionally, hours reported in WBRS could not always be supported by member time sheets. In certain
instances, members did not have enough service hours reported on their time sheets compared to hours
reported in WBRS to support the education award they received. Issues identified by subgrantee are as
follows:
       rn      For City Year, out of 17 member files tested, 6 time sheets had no supervisor signature
               and 36 time sheets were changed but not initialed (PYs 2000-2001 and 2001-2002).
               Additionally, total time sheet hours for 10 members did not agree with total service hours
               reported in WBRS (PY 2000-200 1).

               Of 20 member files tested at Winthrop, 2 time sheets were not approved by a supervisor,
               4 time sheets were not completed and signed by the member, changes to 2 time sheets
               were not initialed, 3 original time sheets were missing, and the total time sheet hours for
               1 1 members did not agree with total service hours reported in WBRS. As a result, one
               quarter-time member earned an education award without completing the minimum
               required number of service hours.

                HFHI did not maintain original time sheets for PYs 2000-2001 and 2001-2002, and only
                fax copies were available; changes to 3 time sheets were not initialed.

                At Pickens, we identified instances where time sheet changes were not initialed, and
                white out was used (PY 2000-200 1). Of our test of 13 member files, total service hours
                for two members recorded on time sheets, WBRS, and member Exit Forms did not agree
                (PY s 200 1-2002 and 2002-2003).

                Of 7 member files we tested at OAG, 12 time sheets were not originals, and changes to 2
                time sheets were not initialed.

                Mayor's Office, Georgetown and Marion each had only one member and one program
                year within our audit scope; total service hours recorded on time sheets did not, however,
                agree with hours reported on WBRS for any member.

          In accordance with AmeriCorps Provision (C)(2 l)(c), Time and Attendance Records, the grantee
(or subgrantce) must keep time and attendance records on all AmeriCorps members to document
eligibility for in-service and post-service benlefits. Time and attendance records must be signed by both
the member and an individual with oversight responsibilities for the member.

        The Commission continued to implement additional procedures to ensure accurate member time
sheets. We noted that incidences of noncompliance occurred in PYs 2000-2001 and 2001-2002, except
for OAG, which was in its first year of the AmeriCorps program in PY 2002-2003.

        Recommendation: We recommend that the Commission continue to educate its subgrantees on
the need for appropriate timekeeping and recording procedures, and strengthen its monitoring efforts
during site vlsits to ensure that member time sheets are properly prepared, approved, maintained, and
reported.

7.      Certain subgrantees did not ensure that members were eligible to perform their designated
        services or that services provided were qualified under grant provisions.

        Subgrantees did not ensure members were eligible to perform service, or the services provided
did not meet the intent of the grant, as follows:

                Member files at three subgrantees (City Year, Winthrop, and HFHI) did not always
                include high school diplomas or equivalent records; Winthrop and HFHI provided GED
              information subsequent to our site visit. According to 45 CFR, 5 2522.200(a)(2)(ii),
              Eligibility:

                      An AmeriCorps participant must . . . [hlave a high school diploma or its
                      equivalent; or . . . [nlot have dropped out of elementary or secondary
                      school to enroll as an AmeriCorps participant and must agree to obtain a
                      high school diploma or its equivalent prior to using the education award.

               Also, for PY 2000-2001, City Year failed to notify the Trust that a member who
               completed his service term had not completed his GED. According to the 2001
               AmeriCorps Program Director's Handbook, if a member has not completed a GED by the
               end of a service term but has otherwise successfully completed the term, the program
               director must submit the Exit/End of Term of Service form with a signed memorandum
               indicating that the member did not complete the GED.

               Failure to obtain this information could result in an education award being made to an
               ineligible member.

               OAG failed to maintain documentation regarding proof of U.S. Citizenship for five
               member files. According to AmeriCorps Provision (B)(14)(b), Member Records and
               Confidentiality, grantees must obtain and maintain documentation to verify U.S.
               citizenship, U.S. national status, or U.S. lawful permanent resident alien status.

               With Commission approval, USCS allowed a member to serve in Mexico. The member
               received a living allowance for her two months of service in Mexico and an education
               award at the end of her service. Per 45 CFR 5 25 10, Overall Purposes and Definitions,
               the Corporation's mission is to engage Americans in community-based services that will
               address the nation's educational, public safety, human, and environmental needs to
               achieve direct and demonstrable results. Therefore, the living allowance for the time
               served in Mexico is unallowable. Additionally, the member did not meet the required
               number of service hours to be eligible for an education award.

               USCS recruited six work study students without prior Corporation approval, although it
               did obtain Commission approval (PY 2002-2003). AmeriCorps Provision (B)(l l)(h),
               Federal Work Study, states, "[ulpon approval by the Corporation's Program Office. Work
               Study students may be enrolled as AmeriCorps members."

        Recommendation: We recommend that the Commission strengthen subgrantees' understanding
of provision requirements and enhance training efforts to ensure that subgrantees properly document
member eligibility and eligible service projects.

8.     Certain subgrantees did not comply with program requirements on member activities'
       documentation and reporting.

        We noted the following instances in which subgrantees did not comply with program
requirements in the areas of member activity and living-allowance payments.

               Member Enrollment and Exit Forms. These forms must be submitted to the
               Corporation no later than 30 days after member enrollment and exit. We found the
               following exceptions:
                                     Program       Number of          Forms
                 Subgrantee           Years        Files Tested    Submitted Late
                 City Year          2000-2003           17                11
                 Winthrop           2000-2003           20                14
                 OAG                2002-2003           7                  1
                 Mayor's Office     200 1-2002           1                 1
                 Marion             200 1-2002           1                 1

               Additionally, Winthrop did not submit an exit form for one member.

               Mid-Term and Final Evaluations. Documentation of mid-term or final evaluations was
               missing for several subgrantees, and evaluations were not properly recorded and signed
               by members or supervisors. Grantees are required to conduct at least mid-term and end-
               of-term evaluations on each member's performance. AmeriCorps Provision (B)(7)(g),
               Performance Reviews, stipulates that evaluations are to be performed to document
               assignments and to document that members met other performance criteria
               communicated at the beginning of the service term. The following subgrantee files were
               missing these evaluations:


                                   Program       Number of         Missing      Evaluations with
                 Subgrantee         Years        Files Tested     Evaluations   Missing Signature
                 City Year        2000-2003           17              4                  2
                 Winthrop         2000-2003           20              9                  5
                 Pickens          2000-2003           13              4                  0


               Supporting Documentation. OAG did not maintain support to document that three
               members attended member orientation, as required by AmeriCorps Provision (B)(7)(c),
               which states, "[tlhe Grantee must conduct an orientation for members and comply with
               any pre-service orientation or training required by the Corporation."

        Recommendation: We recommend that the Commission enhance its training efforts to ensure
that subgrantees adequately document and report member activities as required by the Corporation.

9.     The Commission lacked appropriate procedures for reviewing OMB Circular A-133 audit
       reports and providing feedback to subgrantees for improvements.

       Our review of subgrantee OMB Circular A-133 audit reports noted the following problems:

               Three subgrantees (Pickens, Richland, and Clarendon 2) reported Learn and Serve
               expenditures as coming from the Commission, although they were direct grants from the
               Corporation.

               Three subgrantees (Pickens, HFHI, and Richland) improperly identified subgrants as
               coming from an agency other than the Commission.
        The checklist used by the Commission to review OMB Circular A-133 reports did not always
document the audit resolution and follow-up process or any reconciliation of funds reported on the OMB
Circular A-133 schedule of expenditures paid to the subgrantee under that award.

        Recommendation: We recommend that the Commission strengthen its review of subgrantee
OMB Circular A-1 33 audit reports to ensure that sources and uses of the funds are properly identified,
and costs claimed to the Commission are reconciled to amounts reported on subgrantee OMB Circular A-
133 audit reports.

        This report is intended solely for the information and use of the Corporation's OIG, Corporation
management, the Commission, and the U.S. Congress, and should not be used by anyone other than these
specified parties.

COTTON & COMPANY LLP



Sam A. Hadley, CPA, CGFM
Partner
          STATUS OF FINDINGS FROM THE PRE-AUDIT SURVEY OF THE
     SOUTH CAROLINA COMMISSION ON NATIONAL AND COMMUNITY SERVICE
              OFFICE OF INSPECTOR GENERAL REPORT NO. 01-22


         The findings listed below were included in Office of Inspector General Report No. 01-22. The
status of each finding is addressed below.

1.     Communications with Rejected Applicants

       In a sample of five rejected applicants tested in the pre-audit survey, the Commission could not
       provide documentation indicating whether the reasons for the rejection of Literacy for Liberty's
       grant application for Program Year 1994-1995 were communicated to the applicant. This
       documentation may have been misfiled or lost in the process of transferring the Commission's
       activities from the South Carolina Governor's Office to the South Carolina Department of
       Education.

        Additionally, in years prior to PY 2000-200 1, the Commission's notification to rejected
        applicants only contained a generic reason for rejection and did not specifically invite the
        applicants to contact the Commission for additional information.

        Current Status: The exception noted in PY 1994-1995 appears to be an isolated incident.
        Additionally, this finding related to a program year outside of our audit scope. During our audit,
        we verified that the Commission's current notification letter to rejected applicants invites them to
        contitct the Commission for additional information. No exception was noted, and no further
        action is recommended.

2.      Lack of Review of Subgrantee Matching Requirements and Follow Up on Noted
        Deficiencies

        From 1994 to 1998, no documented evidence exists to support the review of subgrantee matching
        requirements and follow up on matching deficiencies. In addition, the Commission had not
        forn~alizedprocedures on what actions to take if subgrantees did not meet their match.

        Current Status: Based on our subgrantee site visits, we noted that the Commission's monitoring
        effort over subgrantee matching requirements should be improved. The Commission did not
        ensure that subgrantee matching was accurately recorded, and that the reported match was
        properly supported and allowable. We also identified deficiencies on subgrantee matching even
        after the Commission's review noted no problems. (Finding No. 4).

3.      Preparation and Review of FSRs

        The pre-audit survey identified situations where:

            ,4dministrative grant FSRs and consolidated FSRs for the AmeriCorps Formula grant
            incorrectly reported the recipient share of outlays as total outlays and did not report the
            Federal share of outlays.

            On the consolidated FSRs for the AmeriCorps Formula grants, column I (previously reported
            amounts) did not always agree to cumulative totals in column I11 on prior consolidated FSRs.
         PDAT and Administrative expenditures were reported on the same FSRs from 1994 to 1998.

         The Commission's review procedures of subgrantee FSRs were not documented.

     Current Status: We reviewed the Commission's aggregate FSRs for all grants within our audit
     scope and did not identify any errors in classification of the Federal and grantee share of costs or
     accumulation of costs. Costs for different grants were reported with separate FSRs. The
     Commission noted that it completes and files an FSR review worksheet for each FSR submitted
     by subgrantees. We reviewed the cutrent process, tested those procedures, and noted no
     problems. During our site visit, however, we identified other issues relating to the preparation
     and submission of financial reports (Finding No. 3).

4.   Timeliness of Subgrantee FSR and Progress Report Submissions

     The Commission did not date stamp FSRs and progress reports upon receipt prior to the
     implementation of WBRS. Additionally, based on the date the subgrantee's representative signed
     the reports, 4 out of 8 subgrantees tested in the pre-audit survey submitted FSRs and progress
     reports late, and the auditor did not find evidence supporting follow-up on these untimely
     submissions. Prior to PY 1999-2000, there were no written policies requiring timely submission
     of these reports.

     Current Status: We verified that a formal written policy, entitled "Financial Reporting Process,"
     was established and included in subgrantee grant agreements. We noted, however, that none of
     the six selected AmeriCorps subgrantees submitted all FSRs and progress reports on time, and no
     punishments were levied, as stipulated in the policy (Finding No. 2).

5.   Lack of Sufficient Subgrantee Monitoring and Evaluation Prior to Program Year 1998-
     1999

     The Commission could not provide adequate documentation to support the extent of its
     monitoring and evaluation activities for Program Years 1994-1995 through 1997- 1998, although
     limited evidence exists to support the performance of some site visits during that time frame.

     Current Status: The Commission conducted site visits of all AmeriCorps subgrantees at least
     once a year and maintained adequate documentation to support the extent of its monitoring and
     evaluation activities. We noted that Commission monitoring did not identify all major
     compliance/programmatic problems during the site visits (Finding Nos. 6-8).

6.   Documentation of Subgrantees' AmeriCorps Member Time Sheets and Expense Items
     Examined During Site Visits

     Prior to July 2000, the Commission did not document which member time sheets and expense
     documents (Federal and match) were reviewed during site visits. In addition, the Commission did
     not document the sample size selected and the rationale behind that selection.

     Current Status: The Commission reviewed 25 percent of member files during the fall site visit,
     and sampled matching documentatians as shown in the most recent PER in WBRS during the
     spring site visit. Copies of the matching documentation reviewed were maintained, but a list of
     member files tested was not maintained in the monitoring files once all issues identified in the
     Commission site visit were adequately addressed. We recommend that the Commission maintain
     documentation of all member files and expense items tested, so that a reviewer of Commission
     site visit files can assess whether the sample size selected was adequate. In addition, the
     Commission should retain site visit documentation in case questions arise about the results of a
     site visit. This issue is not material and was not included as an internal control finding.

7.   Other Observation, Annual Accomplishment Review Form

     Prior to PY 1999-2000, the Commission did not adequately review and verify the information
     provided by subgrantees to the Corporation in their Annual Accomplishment Review forms
     because the Corporation did not instruct the Commission to verify this information.

     Current Status: Submission of Annual Accomplishment Review forms is no longer required for
     Commissions. The subgrantees submit progress reports via WBRS, and the Commission verifies
     the accuracy of the reported program accomplishments. Formal feedback on progress reports is
     provided to subgrantees. No further action is recommended.
     SOUTHCAROLINA
                 COMMISSIONON
NATIONALAND COMMUNITY
                    SERVICE
                          RESPONSE
                         SOUTH CAROLINA COMMISSION
                     ON NATIONAL AND COMMUNITY SERVICE




  To:            Daniel P. Lybert
                 Assistant Inspector General for Audits

                 Carol M. Bates
                 Audit Manager

   From:         Kathy G. Carter, Ed.D.
                 Executive Director

   Date:         May 19,2004

   Re :          Comments on April 2004 draft of OIG Report Number 04-14 to
                 South Carolina Commission on National and Community Service

   Thank you for the opportunity to comment on the draft summarizing the results of the
   Office of the Inspector General Incurred-Cost Audit of grants awarded to the South
   Carolina Commission on National and Community Service. The Commission has put
   many procedures and policies in place to ensure that all federal programs are in
   compliance.

   This package includes a response to each of the Compliance and Internal Control
   Findings as well as all questioned costs at the subgrantee level. The Commission has
   worked extensively with each subgrantee to resolve all audit issues. A response to each
   finding is included in this mailing for your review.

   Please feel free to contact me at 803-734-4792 if you need any additional information for
   the final report. We look forward to working with the Grants Office to resolve all issues.

   Cc:     Tommy Myers, Chairman
           South Carolina Commission on National and Community Service

           Douglas S. Gerry
           Grants/Financial Analyst




3710 LANDhlARK DRIVE, SUITE 200, COLUMBIA, SOUTH CAROLINA 29204    (803) 734-4796   FAX (803) 734-4825
COMPLIANCE AND INTERNAL CONTROL FINDINGS
1.   The Commission claimed unallowable costs and costs for which no
     documentation was provided to support allowability.

     The Board revised its policy for Monitoring Program Quality and Compliance
     with Legal, Regulatory, and Grant Requirements of Corporation Subgrantees in
     April 2004. The purpose of the change is to strengthen the commission's
     financial review and ensure that all claims, including labor costs, meet the
     regulatory and compliance requirements. Sample time sheets will be distributed
     at orientation meetings for all commission-funded programs.

2.   The Commission and certain subgrantees did not submit Financial Status Reports
     (FSRs), Progress Reports, and Periodic Expenditure Reports (PERs)/Final
     Reimbursement Claims in a timely manner.

     South Carolina was one of the last states to receive training in WBRS in October
     2000. Initially there were numerous problems with the WBRS system, which
     made it impossible to prove that reports were submitted on time. Additionally,
     WBRS only tracks the date of final revision, which often is different fiom the
     original submission date. The commission plans to print and maintain a copy of
     all reports submitted in WBRS.

     The Commission requires a PER only when a subgrantee submits a
     reimbursement claim. PERs are a management tool and are not a reporting
     requirement.

3.   Federal and grantee shares of outlays reported on FSRs were inaccurate.

     The Board revised its policy for Monitoring Program Quality and Compliance
     with Legal, Regulatory, and Grant Requirements of Corporation Subgrantees in
     April 2004. The purpose of the change is to strengthen the commission's
     financial review and ensure that all claims reported on the FSRs meet the
     regulatory and compliance requirements. Financial documents that are reviewed
     will be kept in the subgrantee's monitoring file.

4.   Grantee match was not properly recorded and monitored.

     The current accounting system utilized at the SC Department of Education does
     not allow for the segregation of matching costs. Modifying the accounting system
     would require a substantial amount of both labor hours and cost. Our Office of
     Technology has a prioritized schedule for changes to all of our technology
     systems and this schedule is prepared well in advance.

     The Office of Finance will present this modification to the Office of Technology
     for their review as to the feasibility of adding this to the schedule. In the
     meantime, the manual accumulation of matching costs has worked without
     problems in the past. There is only one person in the agency that prepares the
     financial status reports if required for a particular grant. This ensures that there is
     no duplication of matching costs being reported for various grants.

5.   The Commission did not include sufficient financial information, including Office
     of Management and Budget (OMB) Circular A-133 audit results and relevant past
     performance of grant applicants, in its subgrant award process.

     The Board revised the Pre-Award Risk Assessment Process in February 2004 to
     include a review of state agencies' A-133 audits if an applying agency is part of
     the state's Single Audit Act. The audits will be reviewed for any audit exceptions
     prior to the issuance of any Commission grant awards.

6.   Certain subgrantees did not properly prepare, approve, and report member time
     sheets.

     The PDAT director will ensure that all subgrantees are properly trained in how to
     properly prepare, approve and record member time sheets. Sample time sheets
     will be shared with new subgrantees each year.

     The Board revised its policy for Monitoring Program Quality and Compliance
     with Legal, Regulatory, and Grant Requirements of Corporation Subgrantees in
     April 2004. The monitoring teams will carefully review member time sheets to
     ensure compliance with legal and regulatory requirements during scheduled site
     visits.

7.   Certain subgrantees did not ensure that members were eligible to perform their
     designated services or that services provided were qualified under grant
     provisions.

     The PDAT director will ensure that all subgrantees are trained on member
     eligibility. The monitoring teams will review the member records to ensure
     compliance with the Board's policy for Monitoring Program Quality and
     Compliance with Legal, Regulatory, and Grant Requirements. The monitoring
     team's work papers (with member names) will be kept in the subgrantees' files.

8.   Certain subgrantees did not comply with program requirements on member
     activities and living-allowance payments.

     The Board revised its policy for Monitoring Program Quality and Compliance
     with Legal, Regulatory, and Grant Requirements of Corporation Subgrantees in
     April 2004. The purpose of this change was to ensure that subgrantees adequately
     adhere to all program requirements including the completion of member
     enrollment and exit forms, preparation of mid-term and final evaluations, and
     proper payment of living allowances.
   The PDAT manager will ensure that all programs are properly trained and will
   distribute sample forms to all program directors.

9. The Commission lacked appropriate procedures to review OMB Circular A-133
   audit reports and provide feedback to subgrantees for improvements. .


   In accordance with OMB Circular A-133, the SC Department of Education serves
   as the pass-through entity for Corporation for National and Community Service
   federal funds. The Office of District Auditing and Field Services performs all
   subrecipient monitoring responsibilities outlined by OMB Circular A-133.

   Each of South Carolina's 85 local education agencies (LEAs) expend a total of
   $300,000 or more in federal awards each year and therefore have a Single Audit
   conducted. For all LEAs, the Ofice of District Auditing and Field Services'
   subrecipient monitoring procedures require that each LEA'S audit report be
   reviewed to identlfy federal award findings. Once identified, federal award
   findings are submitted to the proper SDE federal program director for issuance of
   the required Management Decision. Upon receipt of the Management Decision, a
   complete desk review of the audit report is performed. Due to staff constraints,
   the Office's current subrecipient monitoring procedures require that desk reviews
   be performed for only those LEAs for which federal award findings are noted.
   After all desk reviews are completed, a closeout letter is mailed to the LEA. The
   purpose of the closeout letter is to inform the LEA of any fmdings noted during
   the desk review to ensure they are properly corrected.

  The Office of District Auditing and Field Services also performs subrecipient
  monitoring responsibilities for 17 1 non-profit entity subrecipients. For those non-
  profit entity subrecipients expending a total of $300,000 or more in federal
  awards, the same procedures noted above for LEA subrecipients are performed.
  However, because most non-profit entity subrecipients expend less than a total of
  $300,000 in federal awards, the Office's procedures require that a select number
  of' subrecipients be selected for a documentation review. During the
  documentation review, one judgmentally selected expenditure claim is reviewed.
  Any findings noted as a result of the review are documented and distributed to the
  subrecipient and the federal program office director to ensure they are properly
  corrected. All 171 non-profit entity subrecipients remain subject to an on-site
  review by the Office depending on the results on responses provided on the
  annual federal program questionnaire and the results of the documentation review.
  Any findings noted as a result of the on-site review are distributed to the
  subrecipient and the federal program office director to ensure they are properly
  corrected.

  All findings noted during the audit will be addressed in the 2003-04 SDE Single
  Audit Guide.
Administrative Grant
Grant #: 01SCSSC051

      While the auditors did not question the cost associated with the Commission's
      American Association of State Service Commissions (ASC) membership, they
      noted that it might violate OMB Circular A-87, Attachment B, Subsection 30.

      Commission Response: The Commission received a letter fiom both the CNCS
      grants office and legal counsel granting permission to use federal dollars for ASC
      membership dues. The Commission also detailed this expenditure in the budget
      that was submitted to CNCS.

                                 Questioned Costs

AmeriCorps Competitive
Grant #: 00ASCSC042

City Year
    Finding   Response
      1       Although internal calculations differed, City Year did not challenge
              Cotton & CO.'S calculation of unallowable salary costs. $3,489 was
              returned to the Commission.
      2.      City Year claimed $3,938 that was paid to a vendor for meeting space and
              associated costs related to the 3-day training for incoming corps members.
              The invoice on file is for $3,659. The invoice provided to City Year was
              for room and board only. The PO reflected the submitted invoice.
              Incidental costs (phone service, clean up, equipment rental) were not
              included on the original invoice. City Year was unable to locate the
              supplemental invoice for the additional charges and returned the
              difference of $281 to the Commission.
      3.      City Year did not challenge the above findings (#1 and #2); therefore, City
              Year returned $198 in associated administrative costs to the Commission.
      4       City Year has an extensive system in place for the management of corps
              member documentation files. The new management system was rolled out
              in August 2002. The current policy allows City Year to aggressively seek
              to collect any omitted signatures. The questioned evaluations are for
              members who served prior to the introduction of this system.
      5       This finding was cleared during the Exit Conference with the State
              Commission, auditors, OIG and CNCS grants office. As per standard
              procedure, City Year submitted a Non-Completion of GED form to the
              Trust, which will prohibit the member fiom accessing his award unless he
              provides evidence to the Trust that he has earned his GED.
Winthrop
    Finding   Response
       1      All members completed the required hours of service as stipulated in
              member contract. E-mails fi-om CNCS program oficers regarding how to
              pay members differ from the auditor's interpretation of the provision.
      2       Members did receive midterm and final evaluations but some were
              missing member and/or site coordinator's signature. It is not specified in
              the provisions that all evaluations must receive the noted signatures.
              Section B(7)(g) of the AmeriCorps provision states: The Grantee must
              conduct at least a mid-term and end-of-term written evaluation of each
              member's performance, focusing on such factors as:
              i. Whether the member has completed the required number of hours;
              ii. Whether the member has satisfactorily completed assignments; and
              iii. Whether the member has met other performance criteria that were
              clearly communicated at the beginning of the term of service.
              Furthermore, if successfid completion of service needs to be determined,
              members' timesheets can be viewed to see if how requirements were met.
              Lastly, there is a declaration statement on the Exit Form where program
              directors certifl whether or not the member success~llycompleted
              service and this question was completed for all of the questioned
              members.
       3      The questioned member who received the service award did have the
              required number of service hours on timesheets that matched WBRS. The
              auditors disallowed one timesheet because the member recorded 10
              service hours that were performed two months earlier. The site
              coordinator that signed the sheet was the same site coordinator for the
              earlier month; however, because the time was not recorded on the correct
              timesheet, the hours were disallowed. To ensure that WBRS hours match
              timesheets, Winthrop has developed a two-step process where the
              coordinator will review all timesheets and compare to what is recorded in
              WBRS. After the coordinator completes this task, the director will do the
              same. This will ensure that all records are accurate.

AmeriCorps Formula
Grant #: 09ASPSC042

Habitat for Humanity
   Finding    Response
      1 Time sheets for the AmeriCorps program director in 2000-2001 were properly
        prepared but were misplaced and unavailable for review. HFHI has submitted
        to the Commission a notarized affidavit for all hours charged to the grant with
        back-up documentation. There were no problems with time sheets for
        subsequent years (200 1-2002,2002-2003 and 2003-2004).
      2 HFHI did not challenge the finding and repaid the Commission $1,497.
Pickens
Finding Response
        IPickens did not violate the district nor state procurement policy. The $7
         luncheon per diem is the maximum that can be reimbursed to an individual,
         but the policy does not prohibit the district fiom exceeding that rate to a food
         vendor as long as all procurement procedures are followed. The district did
         not provide any individual reimbursements. The $25 cost of cookies in
         question was for a member-training event.
       2 Pickens discovered the error prior to the audit and repaid the Commission
         $14,236.10. The Commission self reported the mistake to the auditors. The
         payment exceeded all costs questioned in the audit.
       3 Labor costs were under claimed; therefore, there were no additional
         questioned costs.
       4 Pickens repaid the administrative costs associated with Finding #2 as part of
         the $14,236.10.

USCS
   Findings    Response
       1       The corps member completed her term of service in her hometown due to
               extenuating family circumstances USCS provided the Commission a
               notarized affidavit signed by the member.

Winthrop
   Findings Response
       1 The vendor provided the program coordinator a duplicate receipt for the
          questioned cost. This information was sent via UPS to Cotton and Company
          in December along with other requested information.
       2 The program currently prepares two wage agreements for members: one for
          the fall and spring academic semester and one for the summer. The members
          receive a living allowance during the winter break because the majority of
          them go into the community and complete service during the holidays. If
          members are not allowed to receive a living allowance, this will have a
          twofold negative effect: first members will lose a month of service time
          during the grant year because the break is approximately four weeks; secondly
          the community will feel the effect because members contribute hundreds of
          hours for toy drives, food drives and other holiday related service projects.
       3. Members did receive midterm and final evaluations but some were missing
          member andlor site coordinator's signature. It is not specified in the
          provisions that all evaluations must receive the noted signatures. Section
          B(7)(g) of the ArneriCorps provision states: The Grantee must conduct at least
          a mid-term and end-of-term written evaluation of each member's performance,
          focusing on such factors as:
          i. Whether the member has completed the required number of hours;
          ii. Whether the member has satisfactorily completed assignments; and
          iii. Whether the member has met other performance criteria that were
          clearly communicated at the beginning of the term of service.
             Furthermore, if successfd completion of service needs to be determined
             members' timesheets can be viewed to see if hour requirements were met.
             Lastly, there is a declaration statement on the Exit Form where program
             directors state whether or not the member successfully completed service and
             this question was completed for all of the questioned members.


ArneriCorps Homeland Security
Grant #: 02AHHSC042

Oftice of Adjutant General
   Finding      Response
       1 All members completed the required hours of service as stipulated in member
         contract. E-mails fiom CNCS program officers in distribution of member
         stipends differ fiom the auditor's interpretation of the provision.
       2 The OAG did not properly prepare time sheets for the ArneriCorps program
         support staff. The OAG has submitted to the Commission notarized affidavits
         for all hours charged to the grant with back-up documentation. The OAG has
         redesigned their time sheets and currently meet all requirements of the grant.


Learn and Serve
Grant #: 00LCSSC041

York
   Finding      Response
       1 York Parks and Recreation did not challenge the finding and returned $299 to
         the Commission.

Clarendon
   Finding      Response
       1 Three vendors provided services and submitted invoices. Clarendon sent
         checks for payment and recorded the transactions. Clarendon was unaware
         that those checks would not be cashed. Subsequently Clarendon spend
         additional funds on the BRI4C program in a park miscellaneo~saccount.
         Clarendon submitted the accounting records, invoices and canceled checks to
         the Commission. These expenses exceed $1,745 for 2001-2002 and $2,163
         for 2002-2003.

Irmo Chapin
   Finding      Response
       1 Irmo Chapin Recreation Center did not properly prepare the program
         director's time sheets. Irmo Chapin has submitted to the Commission a
         notarized affidavit for all hours charged to the grant with back-up
         documentation. Irmo Chapin has redesigned their time sheets and currently
         meet all requirements of the grant.
UW of Pickens
  Finding      Response
      1 UW of Pickens did not charge an interim program director's salary to the
            grant. The interim program director worked on a part-time basis from October
            28, 2002 until January 31, 2003. The interim director has submitted a
            notarized affidavit for 21.5 hours of time spent working on the BRI4C grant.
            The paperwork includes all payroll information. The employee was paid $12
            an hour. UW of Pickens did not challenge the difference and submitted a
            check for $73 to the Commission.
                                   Corporation for    r-

                                   NATIONAL CI;T
                                   COMMUNITY




To:

From:

Date:         ~ 1 , 2 8 0 4
                                       i'
Subj:         Response to OIG Draft A' dit Report 04-14: Incurred (CostAudit of Grants
              Awarded to the South Carol1
                                     L i s s i o n on National and Community Service


We have reviewed the draft audit report of the grants to the South Carolina Commission and the
response fiom the South Carolina Commission. Due to the limited timeframe for response, we
have not analyzed all documentation provided by the South Carolina (Commissionsupporting the
questioned costs nor reviewed the audit work papers. We will respond to all findings and
recommendations when the audit is issued and we have reviewed the findings in detail.

The auditors questioned $48,867, which is less than 1% of the costs expended by the
Commission in its Corporation grants. The Commission has also addressed each of the findings
and completed corrective action in many cases. We will confirm implementation during the
audit resolution process.




                           1201 New York Avenue, NW + Washington, DC 20525
                                 202-606-5000 + www.nationalservice.org
                          Senior Corps + AmeriCorps + Learn and Serve America           The President's Call to ~ e & c e
